           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
      MEASURE THE NUMBER OF
  SUPPLEMENTAL SECURITY INCOME
  NON-DISABILITY REDETERMINATIONS
            COMPLETED

    August 2002   A-02-99-11003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM


Date:      August 5, 2002                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Measure Review: Reliability of the Data Used to Measure the Number of
           Supplemental Security Income Non-Disability Redeterminations Completed
           (A-02-99-11003)

           The Government Performance and Results Act (GPRA) of 1993,1 requires the Social
           Security Administration (SSA) to develop performance indicators that assess the
           relevant service levels and outcomes of each program activity. GPRA also requires
           disclosure of the processes used to verify and validate the measured values used to
           report on program performance. SSA is committed to ensuring the verification and
           validation of performance measures, and the Office of the Inspector General (OIG)
           audits of the performance measures are a means of achieving this. The objectives of
           this audit were to assess the reasonableness of the methodology SSA used to measure
           the following performance measure, determine the reliability of the data SSA used in its
           measurement process, and evaluate the appropriateness of the performance measure
           with respect to GPRA compliance and SSA’s Annual Performance Plan.

                     Indicator                     FY 2000 Goal         FY 2000 Performance

           Number of SSI Non-disability            2,025,000            2,182,027
           Redeterminations Completed

           BACKGROUND
           SSA oversees two long-term disability programs. The Disability Insurance program was
           established in 1954 under title II of the Social Security Act (Act). The program is
           designed to provide benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program was
           created as a result of the Social Security Amendments of 1972. SSI (title XVI of the
           Act) provides a program of income to financially needy individuals who are aged, blind
           and/or disabled. Redeterminations are post-eligibility reviews of the non-medical
           factors, such as income, resources and living arrangements, that determine whether a
           recipient is still eligible for SSI payments and receiving the correct payment amount.

           1
               Public Law No. 103-62.
There are two types of redeterminations: scheduled and unscheduled. Scheduled
redeterminations are selected depending on an assigned error profile or likelihood of
changes in circumstance that may affect either an individual/couple’s eligibility to
receive SSI payments or the payment amount. These redeterminations are ranked as
high-, medium- and low-level profile error types according to the probability of error.
Unscheduled redeterminations are completed on an “as needed” basis and are
triggered when recipients report or SSA learns of certain changes in circumstances that
could affect the continuing SSI payment amount.

Once selected, redetermination cases are tracked by the Central Office
Redetermination Control System (CORC). Based on the error profiles, the
redeterminations are assigned either to a field office (FO) or the Wilkes-Barre Data
Operations Center (WBDOC).

The methods and priority for performing redeterminations and recording and updating
case data vary depending on the error profile assigned to a particular case. Claims
representatives at FOs typically handle high-error profile redeterminations through face-
to-face or telephone interviews. Claimants are sent letters informing them of any
special documents they may be required to bring to the interview, such as rent receipts
or bank records. The updated information is input via on-line entry to the Modernized
Supplemental Security Income Claims System (MSSICS).

WBDOC conducts redeterminations that have low-error profiles using computer-
generated mail-out forms to be completed and returned by the claimants.2 The low-
error profile is less detailed in the information requested than the high-error profile.
Second requests are mailed out if recipients do not respond to the first mailing within
90 days. Forms are manually reviewed for completeness. If “no change” is indicated, a
completion indicator is posted to the Supplemental Security Record (SSR). Data entry
clerks using Customer Information Control System (CICS) screens key in claimants’
responses, and the SSR is updated by overnight batch processing. If WBDOC does not
receive the form within 180 days of the mailing, or if a complication develops in the
case, the case is transferred to the servicing FO.

Redeterminations that have medium-error profiles are generally assigned to FOs, with a
small portion assigned to the WBDOC. These cases are handled by either telephone or
mail.

Computer programs3 check the redetermination fields on the SSR on a daily basis to
determine whether any changes have occurred. If a case has been completed, a
clearance is assigned to the case. CORC removes the case from its data base of
pending cases and sends a file of all such completed cases to the Redetermination
Information System (RIS).

2
 Low-error cases that are classified as WBDOC exclusions are automatically routed to FOs for
processing. See Program Operations Manual System SI 02305.044 for WBDOC exclusion criteria.
3
    ZSCIDE is the program for MSSICS input, and PE Update is the program for CICS input.


                                                2
RIS counts the records of receipts, clearances, and pending cases received from
CORC. An output file of these workload counts is sent to the Integrated Workload
Management System (IWMS) on a weekly basis. IWMS is a data base comprised of
FO-level or higher summary workload counts. IWMS redetermination data are updated
automatically once a week. Once a month, the Division of Cost Analysis extracts the
redetermination data on clearances from the IWMS and posts it in the Annual
Performance Plan Status Report (Status Report) and, at year-end, in SSA’s
Accountability Report. The Status Report provides a cumulative summary of the
statistic during the fiscal year (FY).

RESULTS OF REVIEW
We could not reach a conclusion on the reliability of the number of completed
redeterminations reported by SSA because of the Agency’s inability to provide us with
clear documentation of the processes and methods used to calculate the statistic. SSA
is not in compliance with Office of Management and Budget (OMB) Circular 123,
Management Accountability and Control, section II, which calls for the maintenance of
clear and readily available documentation of an agency’s transactions, management
controls and other significant events. Moreover, the performance measure emphasizes
only the quantity of redeterminations completed, not the outcome or results of the
reviews.

THE RELIABILITY OF THE PERFORMANCE MEASURE FOR THE NUMBER OF
REDETERMINATIONS COMPLETED CANNOT BE DETERMINED

We could not reach a conclusion on the reliability of the number of completed
redeterminations because SSA does not maintain sufficient documentation of the
methods and processes it uses to calculate the measurement. SSA was unable to
provide either clear documented criteria or a comprehensive guide documenting the
flow of performance measure data. Furthermore, SSA was unable to provide a
consistent explanation of the process. As a result of these deficiencies, we could not
replicate the number of completed redeterminations reported by SSA.

Furthermore, SSA staff advised us that the data files used to produce the performance
measure were not available for all of FY 2000. We were told that these records were
retained and available only on a current and prior month basis. Because of the timing of
our request, September was the only month within FY 2000 that was available for our
review. Our ability to determine the causes of certain data anomalies that we identified
through testing was considerably limited because we could only test 1 month within
FY 2000.

We were also hampered in our ability to test or verify the data posted in the Status
Report. The problem here was that the reported number of redeterminations completed
was only a summary total without an audit trail of supporting individual case-level data.




                                        3
Consequently, we could not perform a Social Security number case-level analysis of the
Status Report data to resolve the anomalies that we found in the data.
OMB Circular 123 states, “…documentation for transactions, management controls, and
other significant events must be clear and readily available for examination.”4
Furthermore, GPRA requires agencies to “…describe the means to be used to verify
and validate measured values.”5 Since SSA lacks this documentation, there is no audit
trail that could be used to verify the performance measure.

DATA ANOMALIES WERE IDENTIFIED

As already indicated, SSA was unable to provide us a documented listing of the criteria
it used to define a completed redetermination for the calculation of the performance
measurement. Nevertheless, we attempted to test the validity of SSA’s reported
number of completed redeterminations through tests of two sets of data extracts from
the SSR and CORC. We selected these data bases because both should have
contained the total universe of completed redeterminations for a given month. Our tests
were based on September 2000 data. We applied what we believed to be reasonable
criteria to the extracts to determine the number of completed redeterminations.

In both tests, the total number of completed redeterminations that we found was less
than the number of completed redeterminations reported by SSA in its September
Status Report. Lacking any documented or definitive criteria with which to replicate the
performance measurement, we cannot state with certainty the actual number of
completed redeterminations that should have been reported or SSA’s degree of error, if
any. The results of our two tests are shown in Figure 1. Details of the specific steps
performed in our tests of the SSR and CORC data are shown in Figures A-1 and A-2 in
the Scope and Methodology section (Appendix A) of this report.




4
    Management Accountability and Control, section II.
5
    Public Law No. 103-62 § 1115(6).


                                                 4
                                    Figure 1:
    Comparison of the Number of Completed Redetermination Reported by SSA and
    the Number of Completed Redeterminations Calculated by OIG Tests of SSR and
                                CORC Data Extracts

    Number               Number             Difference           Number              Difference
  Reported in         Calculated by       Between SSA          Calculated by        Between SSA
     SSA’s             OIG Test of        and OIG (SSR)         OIG Test of           and OIG
September 2000          SSR Data                                CORC Data             (CORC)
 Status Report


      163,006            153,275                  9,731           153,592               9,414


We identified another questionable condition within the data SSA used to calculate the
number of completed redeterminations statistic. There are significant differences
between the two data files we tested, when both should contain similar data. Both the
SSR and CORC extracts distinguish the various categories and types of completed
redeterminations, face-to-face interviews as opposed to telephone interviews. While the
number of different types of redeterminations should agree in the two data bases since
they both should contain the universe of completed redeterminations for the month we
tested, the totals for each type of completed redeterminations differed between the
two files. This could possibly indicate a problem with the accuracy of the data SSA
used to calculate the number of completed redeterminations it reported.

We found still other inconsistencies that we could not resolve. We found that the
number of completed redeterminations produced by CORC was less than that reported
by SSA in its monthly Status Report. As the key workload management system for the
title XVI redetermination program, the CORC system should represent the most
authoritative and final source of input data on workload counts of redetermination
clearances. Nevertheless, the 161,2996 completions for September 2000 contained in
CORC did not match the 163,006 completions reported in the Status Report. We found
it inconsistent and illogical that the reported number of redeterminations should be
greater than the number the CORC system reported for the same period. In both tests
of the SSR and CORC, we could not identify the causes of the differences between
OIG’s and SSA’s data and therefore could not resolve the discrepancies. The lack of
clear documentation of the process did not allow us to draw definitive conclusions on
the cause(s) of these discrepancies.




6
  This represents the number of transactions that CORC has designated as completed. Upon further
testing, we concluded that the file contained 153,592 completed redeterminations. Figure A-2 in
Appendix A further explains our testing of the CORC data.


                                              5
PERFORMANCE MEASURE EMPHASIZES QUANTITY RATHER THAN OUTCOME
OR RESULTS

GPRA requires Federal agencies to “…establish performance indicators to be used in
measuring or assessing the relevant outputs, service levels, and outcomes of each
program activity.”7 OMB Circular A-11 states, “The set of performance goals in an
annual plan should be periodically modified as necessary to reflect changes in
programs, agency capability to collect and report information, the importance and
usefulness of any goal, and any other circumstances.”8 Accordingly, SSA’s
performance indicator and goal for redeterminations do not currently measure the most
relevant, important or useful information related to the redetermination process.

SSA has performed studies concerning the cost/benefit of performing redeterminations,
but it does not provide any such outcome-based data as part of its Annual Performance
Report on the results of the redetermination program. Outcome-based measurements
would better convey whether the real objectives of the SSI program are being
accomplished. For example, SSA does not currently report on the dollar amount of
incorrect payments or the number of SSI recipients that were found ineligible to receive
SSI and dropped from the rolls as a result of the redeterminations. Furthermore, SSA
lumps together all of its completed redeterminations as a single number in its
performance measurement. SSA does not distinguish between the number of high-,
medium-, and low-level error profile type redeterminations completed and the amount of
incorrect payments identified in each category.

The Office of Quality Assurance and Performance Assessment (OQA) collects such
data on the outcomes—and dollar amount benefits—of the redeterminations processed
as part of its annual Change Rate Study. OQA determines whether any over- or
underpayment was discovered as a result of the redetermination and, if so, the dollar
amount involved. According to OQA’s Change Rate Study for FY 2000, 41 percent of
the 1,494,400 redeterminations performed by FOs resulted in a finding of overpayments
totaling $1.6 billion. The OQA also found that 28 percent of the redeterminations
resulted in a finding of underpayments totaling $883.6 million.9

The use of outcome-based performance measures provides a means of assessing the
significance of completed redeterminations and places more emphasis on the quality of
the reviews rather than just the quantity performed.




7
    Public Law No. 103-62 § 1115(4).
8
 Preparation and Submission of Strategic Plans, Annual Performance Plans, and Annual Program
Performance Reports, section 220.9 (a).
9
 According to OQA, there is “some overlap” between the groups that received overpayment and
underpayment of benefits (that is, the same SSI recipient was identified as receiving both an
overpayment and underpayment of benefits).


                                              6
CONCLUSIONS AND RECOMMENDATIONS
We could not reach a conclusion on the reliability of the performance measure for the
number of completed redeterminations reported by SSA because of the lack of sufficient
documentation of the process and data used to count and calculate the
redeterminations performance measure. Moreover, the performance measure
emphasizes only the quantity of redeterminations completed, not the outcome or results
of the reviews. Accordingly, we recommend SSA take the following corrective
measures:

1. Formally document the processes used to collect, analyze, and report the
   redetermination workload performance measure;

2. Maintain an audit trail of the data from which the redetermination workload data are
   produced;

3. Review and verify the accuracy of the number of completed redeterminations
   reported in the Annual Performance Report; and

4. Provide a more outcome-related redetermination performance measure.

AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA has developed the Post-
Eligibility Operational Data Store (PEODS) system, which is a modernized system that
will address many of our concerns. The PEODS system will ultimately replace the
CORC system in October 2002. Also, SSA is considering adding a more outcome-
related redetermination performance measure using payment data in FY 2003. (See
Appendix C for SSA comments.)

OIG RESPONSE

We are pleased that SSA agrees with our recommendations. The development and
implementation of the PEODS system to replace CORC appears to strengthen the
weaknesses identified during our review. We also believe SSA’s consideration to add a
more outcome-related redetermination performance measure using payment data will
provide a more meaningful indicator on the quality of the redeterminations performed.
However, the FY 2003 Annual Performance Plan does not contain such an outcome-
based performance measure. We continue to recommend that an outcome-based
performance measure be used to measure the impact of the redetermination process.




                                               James G. Huse, Jr.



                                        7
                            Appendices
APPENDIX A - Scope and Methodology

APPENDIX B - Acronyms

APPENDIX C - Agency Comments

APPENDIX D - OIG Contacts and Staff Acknowledgments
                                                                               Appendix A

Scope and Methodology
The objectives of this audit were to assess the reasonableness of the Social Security
Administration’s (SSA) methodology used to measure the number of non-disability
redeterminations reported, determine the reliability of the data SSA used in its
measurement process, and evaluate the appropriateness of the performance measure
with respect to Government Performance and Results Act (GPRA) compliance and
SSA’s Annual Performance Plan.

To meet our objectives, we discussed how a redetermination is defined by the Office of
Policy, the SSA component responsible for setting forth the program requirements for
Supplemental Security Income (SSI). We also met with systems personnel in the
Offices of Information Management (OIM), Systems Design and Development (OSDD),
and Systems Requirements to obtain an understanding of the data flow and process
that produces the redetermination workload counts. We obtained and reviewed the
systems descriptions of the key data bases involved in the production of the workload
measure: the Central Office Redetermination Control System (CORC),
Redetermination Information System, and Integrated Workload Measurement System
(IWMS).

To identify the key internal controls in the data collection and reporting process, we
flow-charted the process that collects, analyzes, and reports the redetermination
workload measure.1 This process includes from the point of data entry of the completed
redetermination and its posting to the Supplemental Security Record (SSR) to the final
reporting of the workload measurement in the monthly Status Report. At year-end, the
cumulative figure of redeterminations completed is posted in SSA’s Annual
Accountability and Performance Report. We also conducted a walk-through at an SSA
District Office to observe redeterminations with SSI claimants and the quality review
procedures once the cases are completed.

We reviewed the program language used by SSA to compile the redetermination counts
that are passed on to the IWMS, the source for the performance measure calculation.
Our ability to test the fiscal year (FY) data was considerably limited. We were advised
by SSA personnel that the data files used to produce the performance measure were
not available for all of FY 2000. Instead, the records were retained only on a current


1
 For guidance and criteria on this process, we reviewed Office of Management and Budget Circulars A-
123, Management Accountability and Control, and A-11, Preparation and Submission of Strategic Plans,
Annual Performance Plans and Annual Program Performance Reports.


                                             A-1
and prior month basis. As a result, when we requested the data files, we were only able
to test for 1 month during the audit period.

To test the accuracy and reliability of the performance measure, we obtained

- a data extract of redetermination transactions from the SSR for the September 2000
  period and

- the data files of redetermination transactions generated by CORC for the September
  2000 period.

For the first test, we obtained the SSR data extract and excluded all cases that did not
appear, in our judgment, to constitute a completed redetermination. We used the SSR
because all redetermination activity is posted to this Record. To identify these cases,
we applied criteria taken from explanations of the redetermination fields contained in the
Program Operations Manual System (POMS), SM 01501.002, with particular emphasis
on the disposition indicator field, to ensure that only completed redeterminations were
counted. We used the POMS for guidance because of the lack of written
documentation detailing the criteria SSA uses to conclude when a redetermination is
considered completed. The criteria we applied, the sub-sets of cases we excluded, and
the final total of completed redeterminations we derived are shown in Figure A-1.

                                      Figure A-1
                             OIG Test of SSR Data Extract


Category of Case Record           Number of Records                 Total Records
in SSR Data Extract                   Deleted
Total records provided in                                              257,815
SSR extract
Less:
   Limited issue cases                   45,678                        212,137
   Pending cases                         21,203                        190,934
   Pre-effectuation review               34,922                        156,012
   cases
   Duplicate cases                       2,737                         153,275
Total records                           104,540                        153,275


We provided SSA personnel with a copy of the SSR extract to validate. In an attempt to
replicate the number of redeterminations reported as completed, SSA personnel utilized
different criteria from the Office of the Inspector General (OIG). For instance, SSA
personnel considered some limited issue cases as completed redeterminations at the




                                        A-2
option of the servicing field office (FO). Also, “couple cases”2 were counted twice. SSA
personnel calculated 162,777 completed redeterminations from the SSR extract file
compared to 163,006 reported by SSA. We were advised the 162,777 redeterminations
contained 4,800 redeterminations that were no longer considered limited issue cases.
Also, there were 4,280 “couple cases” based on a 2.7-percent estimate from the
November 2001 composition of CORC. SSA staff informed us that there was no
documentation to support this approach.

For the second test, we obtained the CORC file consisting of 946,564 records
representing all redetermination transactions for September 2000, including all receipts,
clearances, pending cases, etc. We selected the CORC file because it was the central
data source from which the final workload count was ultimately produced. The file
contained status codes assigned by CORC, which clearly identified 161,299 completed
redeterminations. Included in this total, however, were transactions worked on, but not
completed, by the Wilkes-Barre Data Operations Center (WBDOC) and then transferred
to an FO for completion. SSA personnel advised us that these WBDOC transfer cases
were eliminated from the total number of completed redeterminations reported by SSA
in the Status Report. We eliminated these transfers from the CORC extract. The results
of our test are shown below in Figure A-2.

                                            Figure A-2
                                      OIG Test of CORC Data

Type of Case Record in CORC Data                                            Total Records
Total records redeterminations identified as                                                   161,299
clearances
Total records of clearances containing invalid dates                                            (7,701)
(“0000” in the completion date field) and entries of
“P” (pending) in the “Redetermination Type” field
Duplicate cases                                                                                     (6)
Total Records                                                                                  153,592


Our field work was conducted at the OIG New York FO and SSA Headquarters in
Baltimore, Maryland, from July 1999 through December 6, 2001. The entities audited
were OIM’s Title XVI Systems Branch and OSDD. Our audit was performed in
accordance with generally accepted government auditing standards, as applicable to a
GPRA audit.




2
  A couple case is when there are either two eligible spouses that are receiving Federal SSI payments up
to a total of $769 a month or one eligible spouse and one ineligible spouse in which the eligible spouse is
receiving Federal SSI payments up to a total of $512 a month. Both dollar amounts do not include any
State supplementation.


                                                A-3
                                                                Appendix B

Acronyms
Act             Social Security Act
CICS            Customer Information Control System
CORC            Central Office Redetermination Control System
FO              Field Office
FY              Fiscal Year
GPRA            Government Performance and Results Act
IWMS            Integrated Workload Management System
MSSICS          Modernized Supplemental Security Income Claims System
OIG             Office of the Inspector General
OIM             Office of Information Management
OMB             Office of Management and Budget
OQA             Office of Quality Assurance and Performance Assessment
OSDD            Office of Systems Design and Development
POMS            Program Operations Manual System
RIS             Redetermination Information System
SSA             Social Security Administration
SSI             Supplemental Security Income
SSR             Supplemental Security Record
Status Report   Annual Performance Plan Status Report
WBDOC           Wilkes-Barre Data Operations Center
                  Appendix C
Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM



Date:     May 21, 2002                                                  Refer To:   S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “Performance Measure Review:
:         Reliability of the Data Used to Measure the Number of Supplemental Security Income
          Non-Disability Redeterminations Completed”(A-02-99-11003)—INFORMATION



          Our comments on the report are attached. Staff questions can be referred to Odessa J.
          Woods at extension 50378.

          Attachment:
          Proposed Comments




                                                   C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "PERFORMANCE
MEASURE REVIEW: RELIABILITY OF THE DATA USED TO MEASURE THE
NUMBER OF SUPPLEMENTAL SECURITY INCOME NON-DISABILITY
REDETERMINATIONS COMPLETED" (A-02-99-11003)


Recommendation 1

Formally document the processes used to collect, analyze, and report the redetermination
workload performance measure.

SSA Comment

We agree. The Post-Eligibility Operational Data Store (PEODS) system for redeterminations is
a new modernized system that will address many of OIG’s concerns. PEODS is currently being
provided to all field offices to control their redetermination workload. Installation of this system
should be accomplished by the end of May 2002. In developing PEODS, users worked to
identify, document and validate requirements for redetermination data, all calculations, report
content and format. The existing Central Office Redetermination Control (CORC) system, the
Agency's current performance measurement system, will not be terminated until all components
agree that the performance measures information produced by PEODS is acceptable. Therefore,
PEODS is not expected to replace CORC as the Agency's source for redetermination
performance measures until October 1, 2002.

PEODS data will be retained (at least offline) so that validation by higher monitoring authorities
will be possible. Users are working to evaluate how much data should be immediately
retrievable. At this point, it appears SSA will retain 13 weeks of data online and 2-years, current
and prior, detailed data offline.

Recommendation 2

Maintain an audit trail of the data from which the redetermination workload data is produced.

SSA Comment

We agree. See response to recommendation 1.

Recommendation 3

Review and verify the accuracy of the number of completed redeterminations reported in the
Annual Performance Report.




                                            C-2
SSA Comment

We agree that confirmation of the accuracy of Fiscal Year (FY) 2000 data is not easily
obtainable. As noted in our comments to Recommendation 1, the future redetermination control
system--PEODS--will provide the necessary systems structure so that we can affirm the outcome
of the data for future Annual Performance Reports.

Recommendation 4

Provide a more outcome-related redetermination performance measure.

SSA Comment

We agree. The Agency currently has available from its annual Change Rate Study, payment
change data on a national level. The change data are classified by type of redetermination,
percent of redeterminations resulting in a suspension or termination of SSI payments or the
discovery of a retroactive and/or recurring overpayment/underpayment. The average amount of
these payment changes is also available. SSA will consider adding a more outcome-related
redetermination performance measure using payment data in FY 2003.

Technical Comment

Page 2 Paragraph 2 -- The report does not accurately define the acronym for CORC. CORC
stands for Central Office Redetermination Control system.




                                         C-3
                                                                       Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
      Frederick C. Nordhoff, Director Financial Management and Performance
      Monitoring Audit Division, (410) 966-6676

      Timothy Nee, Deputy Director, (212) 264-5295

Acknowledgments

In addition to those named above:

      Robert Blake, Senior Auditor

      Jeffrey Shapiro, Senior Analyst

      Charles Zaepfel, Computer Specialist

      Annette DeRito, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-99-11003.
                        DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
